April 30, 2004
Report No. 04-019


Enhancements to the FDIC System
Development Life Cycle Methodology




             AUDIT REPORT
                                                   TABLE OF CONTENTS

BACKGROUND .................................................................................................................. 1

RESULTS OF AUDIT......................................................................................................... 5

FINDING AND RECOMMENDATIONS

          Need for A Risk-Based SDLC Methodology and
          SDLC Control Framework ..................................................................................... 5

                    Risk-Based SDLC Methodology ................................................................. 5

                    SDLC Control Framework ......................................................................... 7

ONGOING INITIATIVES .................................................................................................13

CONCLUSION AND RECOMMENDATIONS...............................................................13

          Recommendations ....................................................................................................14

CORPORATION COMMENTS AND OIG EVALUATION..........................................14

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY..................................16

APPENDIX II: WATERFALL AND ITERATIVE SYSTEM
             DEVELOPMENT MODELS.................................................................21

APPENDIX III: FEDERAL AGENCIES AND INDUSTRY ENTITIES
              THAT PROVIDED INFORMATION ON SDLC
              METHODOLOGY AND BEST PRACTICES ...................................25

APPENDIX IV: PROJECT MANAGEMENT GUIDANCE .........................................26

APPENDIX V: USEFUL BUSINESS MEASURES OF SYSTEM
            DEVELOPMENT PERFORMANCE ...................................................27

APPENDIX VI: CORPORATION COMMENTS...........................................................28

APPENDIX VII: MANAGEMENT RESPONSES TO RECOMMENDATIONS .......31

FIGURES

          Figure 1:      An Ideal SDLC Methodology and Control Framework ..................... 4
          Figure 2:      Waterfall Model of System Development.............................................21
          Figure 3:      Spiral Software Development Life Cycle .............................................22
          Figure 4:      COTS-Based Systems Approach...........................................................24
annual operating budget; $79 million is budgeted for 2004.3 The FDIC’s Division of
Information Resources Management (DIRM) is responsible for maintaining the SDLC
methodology.

The Systems Development Life Cycle Manual Version 3.0, dated July 17, 1997, contains the
FDIC’s standard methodology for developing its automated information systems.4 The stated
purpose of the FDIC’s SDLC methodology is to provide a repeatable, uniform process to
develop new FDIC automated information systems and enhance or maintain existing systems.
The SDLC methodology applies to all IT projects,5 whether performed by the FDIC or through
contract agreements.

The FDIC has identified the need to improve its SDLC methodology. This need was confirmed
by the results of the recent DIRM Information Technology Program Assessment,6 which
recommended that the SDLC methodology be modernized to adopt newer ways of doing
business and best practices. DIRM selected a new SDLC methodology, Rational Unified
Process®7 on February 20, 2004 and is in the process of engaging a contractor to tailor that
methodology to the FDIC environment and ensure that it is scalable for various project sizes and
types. DIRM plans to have the new methodology fully implemented by January 1, 2005.

Office of Management and Budget (OMB) Circular A-1308 requires the head of each federal
agency to develop agency policies and procedures that provide for the timely acquisition of
required information technology. Federal agency and industry best practice guidance related to
an SDLC methodology is identified in various sources, including publications by the General
Accounting Office (GAO), the Software Engineering Institute (SEI),9 and the Project
Management Institute (PMI).10 These publications are discussed throughout this report.

Many methods and techniques can be used to direct system development life cycle processes,
depending on the specific circumstances and risks of each development project. Two common
system development models in industry and the federal government include the traditional linear
sequential “waterfall” model and the more current iterative spiral model. Each phase of the

3
  These amounts reflect budgeted expenditures for projects coded D (Development), E (Enhancement), P (Planning), and
F (System Development Support projects).
4
  Pursuant to FDIC Directive 1320.3, Systems Development Life Cycle (SDLC) Version 3.0, dated July 17, 1997.
5
  An IT project is defined in FDIC Directive 1320.3 as the use of computer technology to automate the business process
and practices of an organization. IT projects include a variety of initiatives, system development and maintenance
projects, infrastructure projects, hardware and software acquisition projects, and IT planning projects.
6
  In 2003, the FDIC contracted with Deloitte Consulting to conduct a comprehensive Information Technology Program
Assessment (ITPA) with the objective of remaking the existing program into one that meets business needs effectively
and efficiently. The recommendations from this program assessment are being implemented and include a new
organizational structure, along with a variety of fundamental changes in the processes for managing IT.
7
  Rational Unified Process® (RUP) is a risk-based program development methodology that establishes four phases of
development. RUP is a registered trademark of Rational Software Corporation, which is a wholly owned subsidiary
of International Business Machines Corporation.
8
  OMB Circular No. A-130 Revised (Transmittal Memorandum No. 4), Management of Federal Information Resources.
9
  Carnegie Mellon University’s SEI is recognized for its experience in software development and acquisition processes.
SEI has developed methods and models that can be used to define disciplined processes and determine whether an
organization has implemented them. These methods and models are generally recognized as best business practices.
10
   The PMI has conducted extensive research and analysis in the field of project management.


                                                          2
development process in the waterfall model is clearly defined and generally must be completed
before moving to the next phase. A waterfall approach works well for projects with system
requirements that can be defined and fixed early in the project. The spiral model is a risk-based
iterative approach in which the overall project life cycle is composed of several sequential
iterations or “mini-projects.” The spiral model works well when all project requirements are not
known in advance, as is often the case with large, complex projects. Detailed descriptions of
these system development models are provided in Appendix II.

The FDIC’s current SDLC methodology generally reflects a                              FDIC’s SDLC methodology
phased, waterfall-type model for systems development.                                 has eight interdependent
Subsequent phase decisions, deliverables, and products are                            phases:
dependent on the decisions, deliverables, and products developed                          1. Planning
in prior phases. Unlike the classic waterfall model, the FDIC                             2. Requirements
                                                                                              Definition
methodology does allow for development phases to be combined                              3. External Design
or overlapped, depending on the size and complexity of the                                4. Internal Design
project.                                                                                  5. Development
                                                                                          6. Test
The GAO Standards for Internal Control in the Federal                                     7. Implementation
                                                                                          8. Maintenance
Government11 state that appropriate internal (management) control
helps program managers improve operational processes and implement new technological
developments. Management controls include both the day-to-day management of the project,
such as scope, schedule, and cost controls, as well as controls that ensure the project is
effectively coordinated with other related organizational projects. All of
these controls collectively comprise a control framework to provide reasonable assurance of
effective and efficient operations. An effective control framework for the SDLC methodology
comprises:

     •  project management practices that are implemented to help the project meet cost,
        schedule, and performance goals;
     • performance assessment practices, such as a post-implementation review12 (PIR)
        feedback mechanism, that are used to provide continuous SDLC process improvement;
      • investment management practices that ensure projects align with the agency Enterprise
        Architecture (EA)13 to avoid funding systems that are incompatible or provide redundant
        capability; and
     • security management practices that ensure security requirements are addressed
        throughout the SDLC to cost-effectively reduce the risk of loss, misuse, or unauthorized
        access to or modification of information.


11
   GAO Publication GAO/AIMD-00-21-3.1, dated November 1999.
12
   Post-implementation reviews enable the FDIC to confirm the quality of system development projects and improve
management over IT investments. The reviews provide "in process" feedback on the FDIC’s system development life
cycle activities.
13
   An EA is an institutional systems blueprint that defines in both business and technological terms an organization’s
current and target operating environments (business and systems) and the way the organization will transition between
the two. An EA is a requirement of OMB Circular A-130, based on the provisions of the Clinger-Cohen Act of 1996
(Public Law No. 104-106, codified throughout the U.S.C.). An EA is also a best practice of leading public and private-
sector organizations.


                                                           3
Figure 1 depicts the ideal relationship between the SDLC methodology and its control
framework.


         Figure 1: An Ideal SDLC Methodology and Control Framework

                                      Enterprise Architecture
                                             Current




                               ent




                                                                Inv agem
                                                                 Ma
                        na ct
                          gem
                      Ma Proje




                                                                   est
                                                                    n
                                                                      me ent
                                                                        nt
            Control                        SDLC                                  Control
          Framework                                                            Framework
                                         Methodology




                                                                   ess nce
                                                                         nt
                      Ma
                      Sec geme




                                                                Ass orma
                                                                      me
                        na
                         uri nt




                                                                    f
                                                                Per
                            ty




                                     Enterprise Architecture
                                             Target




               Source: OIG analysis of federal agency and industry best practices.




                                                  4
RESULTS OF AUDIT

Consistent with DIRM concerns and the DIRM program assessment findings, we determined that
the FDIC’s existing SDLC methodology did not ensure the consistent delivery of quality systems
that satisfy corporate requirements in a timely and cost-effective manner. Specifically, the
existing SDLC methodology does not adequately reflect certain best practices, including a risk-
based approach to system development and does not incorporate all the policies and procedures
necessary to provide an effective SDLC control framework. Consequently, there is greater risk
that projects will not meet cost, time, and performance goals and that the systems will not be
consistent with the EA or incorporate adequate security requirements.

NEED FOR A RISK-BASED SDLC METHODOLOGY AND SDLC CONTROL
FRAMEWORK

The FDIC’s existing SDLC methodology does not provide for the use of an appropriate system
development model based on risk14 considerations for each project. Further, the current SDLC
control framework is not adequate to:

       •    integrate project management controls during the development process,
       •    assess project performance to ensure project success and provide feedback to continually
            improve the SDLC methodology,
       •    ensure consistency with the EA to avoid system incompatibility and duplication, and
       •    incorporate security management throughout the SDLC.

The FDIC’s SDLC methodology has not been changed since 1997 and, therefore, does not reflect
recent best practice guidance related to the use of risk-based system development models and
procedures needed in a control framework.

Each component of this finding is discussed separately below.

Risk-Based SDLC Methodology

The FDIC’s existing SDLC methodology recommends that the project manager consider the
complexity and risk associated with a planned application in determining whether to use the
current SDLC methodology for the project or whether to adapt the procedures and
documentation required by the methodology. However, the FDIC’s primary system
development model is the linear sequential model, which is not the best model for all
development projects. The SDLC methodology does not provide adequate guidance on the use
of other development models, such as iterative models, that better address the specific risks of
certain development efforts, especially those involving the use of commercial off-the-shelf
(COTS) software. The FDIC’s use of COTS software on two of its largest system development




14
     Risks are situations or possible events that can cause a project to fail to meet its goals.



                                                                  5
efforts, the New Financial Environment (NFE) and the Corporate Human Resources Information
System (CHRIS),15 indicates that such guidance is needed to successfully complete those types
of development efforts.

OMB Circular A-130 discusses an information system life cycle but does not define a preferred
SDLC process model for use in the federal government. However, National Institute of
Standards and Technology (NIST) guidance16 states that many methods exist that can be used by
an organization to effectively develop an information system, including, among others, the
traditional linear sequential, or waterfall model, and the spiral iterative model. NIST notes that
the expected size and complexity of the system, development schedule, and length of a system’s
life will affect the decision on which the SDLC model will be used.

Best practice guidance issued by
the Information Technology                      ITRB Executive Handbook factors for risk-based selection of
                                                an SDLC model.
Resources Board (ITRB)17
indicates that an SDLC                          Costs. Consider various development alternatives and estimate
methodology should include a risk-              how they might contribute to project costs.
based selection of a system
development model. The ITRB                     Risks. Consider how much risk the project faces from:
                                                    • High visibility due to public or political attention or
Executive Handbook18                                    requirements
recommends that government                          • Highly compressed development time
agencies base selection of an                       • High uncertainty associated with the system’s
appropriate development model on                        requirements, the technology that the system will employ,
careful consideration of four                           or the way that the system will affect business processes
project factors – cost, risk,
                                                Complexity. Consider the project to be complex if it:
complexity, and type. These four                   • Affects many organizations or functional areas
factors address:                                   • Results from business process reengineering, dramatically
                                                       altering the use of information technology
     •   user requirements – the                   • Requires new or rapidly advancing technology
         complexity of the desired                 • Requires a long time for development
         system and when it is
                                                Type. Consider the general type of the project:
         needed;                                    • New development
     •   resource requirements – the                • Modification of an existing system
         resources (human and                       • System integration
         monetary) available in
         comparison to those needed;

15
   Both systems are being implemented with PeopleSoft® COTS software. PeopleSoft® is the second largest enterprise
application software company in the world and the single largest vendor of mid-market solutions.
16
   NIST Special Publication 800-64, Security Considerations in the Information System Development Life Cycle,
dated October 2003.
17
   The ITRB is a group of senior IT, acquisition, and program managers with significant experience developing,
acquiring, and managing information systems in the federal government. Members are drawn from a cross section of
agencies and are selected for their specific skills and knowledge. The ITRB provides, at no cost to agencies, peer
reviews of major federal IT systems. Through these peer reviews, the ITRB identifies practical solutions to actual or
potential problems.
18
   ITRB publication Project Management for Mission Critical Systems: A Handbook for Government Executives
(Executive Handbook), dated April 5, 2001.


                                                          6
     •   EA requirements – the desired system alignment with the current and target EA; and
     •   security requirements – what is the risk of system loss or negative publicity.

For example, an iterative model may be more appropriate for large and complex projects
involving new technology that significantly affects the EA and for which there is a high level of
uncertainty associated with the system’s requirements, such as security requirements. The
waterfall model, however, may be appropriate for smaller projects requiring fewer resources with
the purpose of modifying an existing system and for which there is limited impact on the EA.

The Department of Justice’s (DOJ) SDLC methodology considers the four factors noted above
(project costs, risks, complexity, and type) and the mission criticality of the planned system
when determining the system development model and level of work required. For example,
DOJ’s methodology includes a “reduced effort” work pattern or model that combines some
SDLC phases, eliminates some of the deliverables otherwise required, and combines some of the
reviews to reduce project formality. This work pattern applies to any type of development,
regardless of mission criticality, where the cost, risk, and complexity of the development project
are low. The DOJ methodology also provides an iterative model suited to situations in which
existing business processes will be altered considerably and the full set of detailed functional
requirements cannot be reliably defined early in the development life cycle.

The SEI specifically recommends the use of the spiral iterative model for systems developed
using COTS software to better address the risks of those projects. SEI notes that many
organizations will find the transition to a risk-based spiral development approach one of the
biggest challenges in implementing processes for COTS-based systems. Nonetheless, SEI stated
that the change is needed because attempts to use traditional sequential processes are rarely
successful.

SDLC Control Framework

Project Management

The FDIC has not incorporated all key project management19 practices for system development
projects into its existing SDLC methodology. The methodology gives limited attention to project
management practices aimed at controlling the development process with the goal of delivering
quality systems within budget and time constraints. The methodology requires and provides
some useful guidance on the preparation of key project management documents, such as a
project (work) plan20 and a work breakdown structure,21 but does not address other aspects of a
project management control framework such as developing management plans (described later in
this section of the report), conducting performance assessments, updating the project plan, and

19
   Project management is the application of knowledge, skills, tools, and techniques to project activities to meet
project requirements. Typically, project work, including system development efforts, involves coordination of
competing demands affecting scope, time, cost, risk, and quality; stakeholders with differing needs and expectations;
and identified requirements.
20
   The project plan is a formal, approved document or collection of documents used to manage project execution. The
project plan should be expected to change over time as more information becomes available about the project.
21
   A work breakdown structure organizes and defines the work within the scope of the project.


                                                         7
implementing corrective actions. In particular, the project plan guidance in the SDLC manual
does not include the preparation of management plans, which are a major component of a project
plan.

The PMI and project management experts have identified and developed the types of policies,
procedures, and practices demonstrated to reduce development time and enhance effectiveness.
The PMI’s A Guide to the Project Management Body of Knowledge (PMBOK® Guide)22
identifies the importance of project management in managing and meeting project requirements.
The PMBOK® Guide documents proven practices, tools, and techniques that have become
generally accepted in the field of project management, including information systems
development and implementation.

We primarily used the PMBOK® Guide, in conjunction
with other government and industry guidance, as the         The PMBOK® Guide identifies nine
                                                            distinct knowledge areas associated
primary criteria for reviewing the FDIC’s SDLC              with successful project management:
methodology because the guide contains sound and            • Integration       ● Scope
prudent practices related to successful project
                                                            • Time              ● Cost
management. The key project management activities
                                                            • Quality           ● Human resources
identified in the PMBOK® Guide include
                                                            • Communication ● Risk
preparing the project plan, preparing management plans
                                                            • Procurement management
for the PMBOK® knowledge areas, conducting
performance assessment, updating the project plan, and
implementing corrective action. Additional information about the PMBOK® Guide is included
in Appendix IV of this report.

According to the PMBOK® Guide, a project plan should be prepared as part of project
integration management. Also, management plans should be prepared for the areas of risk,
scope, time/schedule, cost, quality, staffing, communications, and procurement. The
management plans provide consideration for various contingencies and describe how each
contingency will be managed. For example, the staffing management plan describes when and
how human resources will be brought onto and taken off the project team. The cost management
plan describes how cost variances will be managed (e.g., different responses to major variances
than to minor ones.)

Another important management principle currently not incorporated in the SDLC methodology
is an earned value management23 system (EVMS). Performance measurement expressed in
terms of earned value management is a tool to measure performance against the project plan. It
integrates scope, cost, and schedule measures to help the project management team assess project
performance. There are numerous benefits to an EVMS. First, it requires an adequate
understanding of the work to be performed in order to assign a time-phased budget from the

22
   The PMBOK® Guide was published in 2000 and is an approved standard of both the American National Standards
Institute and the Institute of Electrical and Electronics Engineers.
23
   Earned value provides a valid method of measurement to compare planned project accomplishment to actual
accomplishment. By comparing planned milestone completion against actual performance, project managers can
estimate the amount of work remaining. The underlying concept of EVMS is that a project can be managed to
reduce overall cost and schedule while delivering a quality product.


                                                       8
planned start through completion of the work. The performance management baseline
established in this manner readily identifies problem areas such as underfunding, unrealistic
schedules, and poor requirements or work content definition that can lead to later cost, schedule,
and performance problems. An EVMS also serves as an excellent early warning system by
identifying adverse variances in cost, schedule, and performance that may be driven by technical
or business issues. Corrective actions based on an analysis of these variances can be more timely
and the effects more visible than without an EVMS.

OMB Circular A-1124 requires federal agencies to institute performance measures and
management processes that monitor and compare actual performance to planned results.
Agencies should use a performance-based acquisition management system, such as an EVMS, to
obtain timely information on the progress of capital investments and to measure progress toward
milestones in an independently verifiable basis in terms of cost, capability of the investment to
meet specified requirements, timeliness, and quality. See Appendix V for the business measures
GAO identified as useful for measuring system development performance.

OIG audits of the NFE and XBAT system development efforts25 have identified a lack of project
management practices for communication, risk, scope, time, and procurement management.
However, the FDIC has not yet fully incorporated corrective actions in the SDLC methodology.
Until these initiatives are in place and additional project management guidance is issued, the
FDIC cannot be certain that it has addressed all of the risk factors that can undermine project
success and there is greater potential for developing systems that exceed cost and schedule goals
and do not meet users’ needs.

In 2003, the FDIC identified the need for improved project management by commencing two
initiatives in the project management arena. The first initiative was to begin formulating a
Corporate Interdivisional Working Group for project management. The FDIC plans to offer
training through the Corporate University to address identified corporate needs and expectations
for project management. Additionally, DIRM has established an initiative to develop a program
management office and has appointed an Assistant Director to establish the office. These
initiatives are still in the planning stages and have not yet been implemented to improve the
SDLC control framework.

Performance Assessment

The existing SDLC methodology incorporates performance measurement activities, such as
quality assurance testing and a PIR process; however, DIRM has not always used the results of
these activities to improve the existing SDLC methodology. Performance assessment is a critical
function for measuring project progress and comparing it with established baselines. For
maximum return on investment, the strategic value of IT projects should be documented before
funding decisions are made and then verified after implementation. Common techniques for
measuring performance include quality assurance testing and PIRs.

24
  OMB Circular No. A-11, Preparation, Submission, and Execution of the Budget, dated July 2003.
25
 The New Financial Environment Project Control Framework (Report No. 03-016), dated March 5, 2003; New
Financial Environment Scope Management Controls (Report No. 03-045), dated September 29, 2003; and
XBAT Contracting and Project Management (Report No. 04-014) dated March 26. 2004.


                                                    9
Quality Assurance Testing: The existing SDLC methodology identifies the need for quality
assurance testing and refers to the FDIC Quality Assurance26 program for guidance in the
completion of this testing. The FDIC has performed quality assurance testing of selected recent
system development efforts, but DIRM has not always used the results of that testing to improve
the existing methodology. The FDIC issued Circular No. 1360.18, FDIC Software Quality
Assurance Policy, on August 6, 2003 to provide direction on the independent testing and
assessment of FDIC applications throughout their life cycle. The testing, such as independent
verification and validation, helps answer the questions of “was the system built correctly?” and
“was the correct system built?” The answers to these questions should be used to improve not
only the performance of individual projects but also the adequacy of the overall SDLC
methodology.

PIR Process: The existing SDLC methodology
                                                                         The objectives of the FDIC’s PIR process
includes reference to the PIR process, which is now                      are to:
managed by the DIRM Information Technology
Evaluation Section. The PIR process includes review                      • Assess management and end user
of the SDLC documentation and interviews with the                          satisfaction with the product.
project team 6 months after a system is implemented.                     • Determine how well the project met time
Recent PIRs have identified corrective actions needed                      schedules, implementation dates, and life-
                                                                           cycle cost projections.
for continual SDLC process improvement. However,                         • Identify best practices, lessons learned,
not all corrective actions needed to improve the SDLC                      and other improvements to project
methodology have been implemented. Until                                   management activities.
December 2003, DIRM had not formally tracked PIR                         • Identify the tangible and intangible
recommendations to determine the status of the                             benefits achieved.
recommended corrective actions.

OMB Circular A-130 requires that agencies conduct PIRs of information systems and
information resource management processes to validate estimated benefits and costs and to
document effective management practices for broader use. Agencies are to complete an
evaluation of information systems once they are operational to validate projected savings,
changes in practices, and effectiveness in serving stakeholders. These PIRs may also serve as
the basis for agency-wide lessons learned on effective management practices.

Enterprise Architecture and Investment Management

The existing SDLC methodology acknowledges the importance of considering the FDIC’s EA27
during a system development effort and refers to DIRM’s Strategic Planning Section (SPS) for
guidance in using EA information in evaluating individual projects for alignment. The SPS has
developed an EA Blueprint defining, at a high level, the FDIC’s current and target business and
IT architectures. Additionally, the FDIC recently issued an EA policy, newsletter, and other
general guidance indicating that information technology projects should align with the FDIC’s
EA. However, the SPS has not issued detailed guidance on how compliance with this important
EA control activity is to be accomplished. For example, current guidance does not describe how

26
   Quality assurance is the technical and administrative process to ensure the complete and accurate specification,
implementation, and verification of all FDIC application requirements.
27
   Referred to throughout the existing methodology as an information architecture.


                                                            10
to use the EA Blueprint and repository information to evaluate alignment throughout the SDLC
for all information technology projects. Current guidance also does not address how the
evaluation for EA alignment will be used to support funding decisions when system development
is based on an iterative development model. Each of these issues is discussed in more detail
below.

The federal Chief Information Officer’s (CIO) Council28 acknowledges that an EA is essential
for evolving information systems and developing new systems that optimize their mission value.
OMB Circular A-130 instructs federal agencies to base investments in information technology on
the agency EA. Additionally, the GAO has noted that developing, maintaining, and using
architectures, or blueprints, is a best practice in engineering individual systems and entire
enterprises. GAO has also acknowledged that it is important to ensure that systems are built and
modified within the context of the EA that the system supports.

Alignment with FDIC’s EA: The DIRM SPS has prepared draft checklists that could be used
when reviewing SDLC documents, such as business cases, for evidence of EA alignment.
However, these checklists have been issued in draft form only and do not provide detailed
guidance for evaluating a project for alignment with the FDIC’s EA. For example, the planning
phase EA checklist No. 1 addresses whether the project adequately identifies data sharing and
exchange opportunities, which could indicate EA alignment. The checklist, however, does not
explain how to identify and document such opportunities. Also, the SPS has prepared draft
guidance on how and when to report EA alignment information to oversight committees, for both
large and small projects, but the guidance does not reflect how the procedures would change for
iterative development processes. The evaluation of EA alignment may be required more
frequently with an iterative development process because the complete system architecture may
not be known in the early stages of the project but is developed and refined over time as each
iteration is completed.

The GAO found that attempting to define system-level architectures (e.g., requirements and
design specifications) and to use them to build systems without an EA or alignment with an EA
often results in systems that are duplicative, poorly integrated, unnecessarily costly to maintain,
and limited in terms of optimizing mission performance.

Investment Funding Based on EA Alignment: The FDIC’s EA policy29 requires that
consistency with the EA shall be one of the decision criteria for funding IT investments. Small
and large projects should be reviewed for alignment with the EA before funding is authorized.
The FDIC’s Capital Planning and Investment Management (CPIM)30 process and the EA
Blueprint provide general guidelines for when and how to perform these funding reviews. These
guidelines, however, do not yet address funding issues that may arise from the use of iterative
development processes. The FDIC guidance does not describe how and when EA alignment will
be reviewed and the related funding established for each iteration. Consequently, the FDIC

28
   The CIO Council serves as the principal interagency forum for improving practices in the design, modernization, use,
sharing, and performance of federal agency information resources.
29
   FDIC Directive 1303.1, FDIC Enterprise Architecture Program, dated November 7, 2003.
30
   The CPIM process identifies the steps and activities necessary to ensure that the FDIC’s capital investments are well
thought out and cost-effective and support the mission and business goals of the Corporation.


                                                           11
would not be assured that IT investments developed using an iterative approach are adequately
evaluated for EA alignment prior to funding.

Additionally, the existing SDLC methodology indicates that a project may need a cost-benefit
analysis (CBA) but does not provide guidance for its preparation or the criteria for updating the
CBA. The CPIM requires a CBA as part of the business case to seek funding for the system
development effort and that project sponsors submit an updated CBA when the procurement
process or other factors result in substantially different cost estimates. However, the CPIM
process provides only limited guidance on identifying and evaluating the factors that might
require an update to the CBA.

OMB Circular A-130 requires federal agencies to prepare
                                                                             Reasons for updating a CBA may
and update a CBA31 for each information system                               include:
throughout its life cycle. OMB explains that cost-benefit
analyses provide vital management information on the most                    • Significant changes in projected
efficient allocation of human, financial, and information                      costs and benefits,
resources to support agency missions. When preparing                         • Significant changes in information
                                                                               technology capabilities,
CBAs to support IT investments, agencies should seek to
                                                                             • Major changes in requirements
quantify the improvements in agency performance results                        (including legislative or regulatory
through the measurement of program outputs. This                               changes), or
analysis should not merely serve as budget justification                     • Empirical data based on
material, but should be part of the ongoing management                         performance measurement gained
oversight process to ensure prudent allocation of scarce                       through prototype results or pilot
                                                                               experience.
resources.

OMB Circular A-130 does not require a new CBA at each stage of the information system life
cycle, but notes it is useful to refresh these analyses with up-to-date information to ensure the
continued viability of an information system prior to and during implementation.

Security Management

NIST Special Publication 800-64 Security Considerations in the Information System
Development Life Cycle, dated October 2003, notes that including information security early in
the SDLC will usually result in less expensive and more effective security than adding it to an
operational system. To be most effective, information security must be integrated into the SDLC
from system inception. The Systems Development Life Cycle Manual Version 3.0, dated July 17,
1997, recognizes the need to consider security activities throughout the SDLC and references
guidance on the security requirements for each project, including security certification and
accreditation (C&A).32 DIRM has issued Internal Policy Memorandum 03-011, Policy on
Incorporating Information Security into the System Development Life Cycle, dated December 19,
2003, to provide interim guidance for FDIC’s C&A Program by requiring that the information
security tasks, deliverables, and approval requirements be addressed in each of the eight phases
of the current SDLC methodology. The DIRM policy memorandum notes that a more robust

31
  Referred to in OMB Circular A-130 as a benefit-cost analysis (BCA).
32
  C&A refers to the official management decision to authorize operation of an information system that has undergone a
comprehensive evaluation of the management, operational, and technical security controls in an information system.


                                                         12
formalized C&A Program will follow. In addition, the interim guidance does not reference draft
C&A guidelines proposed by NIST.33 Until more detailed guidance is provided as part of the
FDIC C&A program, there may be inconsistent applications of C&A practices that affect, among
other things, testing requirements.

ONGOING INITIATIVES

The FDIC has recognized the importance of replacing its SDLC methodology. One of the 2004
Corporate Performance Objectives is to select and implement a new SDLC methodology. In that
regard, DIRM selected a new risk-based SDLC methodology on February 20, 2004 and is in the
process of hiring a contractor to tailor that methodology to the FDIC environment and ensure
that it is scalable for various projects. Specifically, the draft Statement of Work (SOW) requires
the contractor to tailor the SDLC methodology to address FDIC-specific requirements, including
development and maintenance of projects of varying size, complexity, and risk as well as COTS
products. The SOW also requires the contractor to assess which FDIC policies and procedures
may need to be modified and/or defined such as integration with the Program Management
Office, quality assurance (performance assessment) function, EA, and C&A. The contractor,
however, is not tasked with preparing any of the policy and procedure changes or additions that
may be needed.

Additionally, DIRM has either issued or is developing guidance for project management,
performance assessment, and EA. However, much of the guidance is at the conceptual stage and
is not supported by detailed information for the project managers to use in developing
information systems. Further, DIRM has developed an interim policy on C&A, but has not yet
finalized procedures for implementing the policy.

CONCLUSION AND RECOMMENDATIONS

Our audit has identified best practices that should be associated with the SDLC methodology and
related control framework that will be adopted by the Corporation. Because the FDIC has
selected a risk-based SDLC methodology and developed a SOW to implement the new
methodology, we are not making any recommendations related to the selection of a risk-based
SDLC methodology. However, as DIRM implements the new methodology, DIRM should
promptly implement the necessary control framework. Doing so would provide the Corporation
with greater assurance that projects meet cost, schedule, and quality goals; the development
process continually improves; all system development projects are consistent with the FDIC EA,
and effective security controls exist in all completed systems.




33
  See NIST draft Special Publication 800-37, Guide for the Security Certification and Accreditation of Federal
Information Technology Systems, dated June 2003. This publication will supersede Federal Information Processing
Standards Publication 102, Guidelines for Computer Security Certification and Accreditation, dated September
1983, and will establish a standard process, general tasks, and specific subtasks to certify and accredit federal IT
systems.



                                                         13
Recommendations

We recommend that the CIO and Director, DIRM, establish and issue appropriate detailed
implementing guidance to:

(1)       Integrate the key project management activities identified in the PMBOK® guide with the
          development process. These key activities include preparing the project plan, preparing
          the management plans in the nine knowledge areas, and adopting an EVMS.
(2)       Incorporate the results of performance assessment practices such as performing quality
          assurance testing and PIRs into the development process.
(3)       Align systems development with the FDIC’s EA, establish how funding will be reviewed
          and provided in an iterative development environment, and update cost-benefit analyses
          during the life cycle of the system.
(4)       Incorporate NIST guidance for C&A of security requirements.


CORPORATION COMMENTS AND OIG EVALUATION

On April 27, 2004, the DIRM Director provided a written response to the draft report. The
response is presented in its entirety in Appendix VI of this report. DIRM generally concurred
with the report’s findings and agreed to continue ongoing actions regarding the report’s
recommendations. These recommendations are considered resolved but will remain
undispositioned and open until we have determined that agreed-to corrective action has been
implemented and is effective. The responses to the recommendations are summarized below.

      •   DIRM will establish an Enterprise Program Management Office (PMO), which will
          standardize project management processes across all information technology projects.
          This will include improved procedures for project initiation, project planning, project
          execution and control, and project closeout.

      •   The DIRM PMO will periodically review the results from performance assessment
          activities (such as quality assurance testing and post-implementation reviews) to ensure
          that best practices and lessons learned are incorporated into future project/development
          processes.

      •   The Corporation’s EA program will assist in supporting decision-making bodies in
          determining which new system projects will be undertaken and their alignment with new
          or existing architectures. The PMO will be one of many additional control points to
          ensure that the Corporation’s EA is understood and applied to projects.

      •   FDIC guidelines for applying new C&A standards are in place, and briefings are
          underway to discuss the new processes and evaluate impact on project plans.

With respect to the response addressing C&A standards, more needs to be done before the
guidelines are fully established and in place. Specifically, DIRM has issued an initial policy to
provide a framework for FDIC’s federally-mandated C&A program and has drafted a policy


                                                  14
specifically focused on C&A. In addition, DIRM issued Guidelines on Implementing
Certification and Accreditation for FDIC Systems, on February 17, 2004. These guidelines
outline C&A activities, but do not provide detailed implementing guidance on how C&A is to be
conducted. Without such detailed guidance, FDIC cannot be assured that C&A activities,
including testing, will be conducted effectively and consistently.

The CIO also provided comments on DIRM’s Transformation program, including initiatives on
adoption of improved practices in systems engineering, project management, capital investment
planning, enterprise architecture, and security planning. One of the goals of the Transformation
program is to assist DIRM in restructuring its operations in order to provide the most cost-
efficient, customer-oriented service possible to all FDIC divisions and offices. The
Transformation Office’s mission is to manage the organizational and program changes, resulting
from a 2003 independent IT Program Assessment, that are approved for implementation by
FDIC and DIRM senior management.


Transformation activities began this year and will continue over a period of several years. The
CIO stated that DIRM is addressing the issues discussed in this report in a highly-integrated and
in-depth manner through the Transformation program and that significant progress and results in
these areas are expected by the end of 2005.




                                               15
                                                                                    APPENDIX I

                       OBJECTIVE, SCOPE, AND METHODOLOGY
Objective

The overall objective of our audit was to determine whether the FDIC’s SDLC methodology ensures
the delivery of quality systems that satisfy corporate requirements in a timely and cost-effective
manner. As part of our audit, we examined: (1) The adequacy and cost-effectiveness of management
controls in the FDIC’s SDLC methodology and (2) federal agency and industry best practices for
managing information system development projects. To achieve this objective, we conducted on-
line research, interviews, and analysis of government and industry best practices in SDLC
methodology. Appendix III contains a complete listing of the agency and industry entities that
provided information on SDLC. We performed our work from November 2003 through February
2004 in accordance with generally accepted government auditing standards.

Scope

DIRM engaged a consultant to conduct an Information Technology Program Assessment (ITPA)
of the FDIC’s IT program management in 2003. The consultant recommended enhancing and
updating the SDLC methodology as one of three activities that could be addressed in a 3- to 6-
month timeframe. The consultant’s report stated that the objective of the SDLC review should
be to refine the SDLC methodology by incorporating the best elements of more recent
approaches to system development. The following key activities should be included in
completing the methodology selection:

        •   review the current SDLC methodology,
        •   gather information on current thinking and best practices in SDLC,
        •   collect external benchmarks that can be used to identify strengths and areas for
            improvement, and
        •   gather and prioritize requirements for enhancing methodology.

We focused our efforts on addressing these key activities.

In addition to reviewing the SDLC methodology, we reviewed the SDLC IT control framework.
This control framework includes project management, performance assessment, the enterprise
architecture, and security management.

Current SDLC Process

To gain an understanding of FDIC’s current SDLC practices, we reviewed:

    •   FDIC System Development Life Cycle Manual version 3.0, dated July 1997.
    •   FDIC Circular 1320.3, Systems Development Life Cycle Version 3.0, dated July 17,
        1997.
    •   FDIC Circular 1320.4, FDIC Software Configuration Management Policy, dated July 8,
        2003.


                                                16
                                                                                APPENDIX I

    •   FDIC Circular 1360.18, FDIC Software Quality Assurance Policy, dated August 6, 2003.
    •   FDIC Circular 1303.1, FDIC Enterprise Architecture Program, dated November 7,
        2003.
    •   DIRM Policy No. 03-011, Policy on Incorporating Information Security into the System
        Development Life Cycle, dated December 19, 2003.

Areas Identified for Improvement

To obtain an understanding of areas for improvement in the FDIC SDLC methodology and
perceived best practices, we interviewed DIRM assistant directors responsible for application
development. We conducted interviews of two project managers assigned to DIRM-identified
project successes for best practices. We also interviewed other DIRM employees and the ITPA
consultant and analyzed the FDIC’s Systems Development Life Cycle Manual Version 3.0 and
prior OIG reports to identify potential areas for improvement in the FDIC’s current SDLC
process. Specifically, we reviewed three recently issued OIG reports:

    •  The New Financial Environment Project Control Framework
      (Report No. 03-016), dated March 5, 2003;
    • New Financial Environment Scope Management Controls
      (Report No. 03-045), dated September 29, 2003; and,
    • XBAT Contracting and Project Management (Report No. 04-014) dated March 26,
       2004.

These reports concluded that improvements are needed in the SDLC practices to help ensure that
FDIC system development efforts are more effectively controlled for scope, cost, and quality.

Selected Federal Agencies With Best Practices

To select agencies with SDLC best practices, we contacted the General Accounting Office
(GAO) whose work in government oversight provided an overview of agency activities for
system development. The GAO identified SDLC best practices adopted by the Federal Aviation
Administration (FAA) and the Department of the Treasury’s Financial Management Services.
We also included the Federal Reserve Board, Department of Labor, and Department of Justice in
our analysis of SDLC best practices based on preliminary research conducted by DIRM or
identified through research with other agencies.

Selected Industry Entities With Best Practices

We conducted research to select industry entities with SDLC best practices. Our research
showed and GAO confirmed that Carnegie Mellon’s Software Engineering Institute is a leading
authority on SDLC. Also, to identify process improvements we obtained SDLC best practices
work conducted by International Business Machines and Deloitte Consulting as part of two
contracts with DIRM. We also selected Software Productivity Research to provide insight on



                                              17
                                                                                  APPENDIX I

software development performance measurement. Finally, Forrester Group and
PricewaterhouseCoopers presented best practices on project management to some FDIC
managers; we reviewed those practices for applicability to SDLC best practices.

Methodology

For each of the entities above, we obtained documentation related to SDLC or project
management, conducted interviews to clarify our understanding of the documents presented, and
reviewed the theories, practices, processes, and controls. We interviewed the FDIC personnel
currently responsible for maintaining the SDLC to identify the scope of efforts completed to date
for SDLC improvement. To obtain relevant information on best practices, we conducted
extensive on-line research of SDLC theories and methodologies put forward by academicians
and practitioners.

We evaluated the FDIC’s SDLC process using industry and Federal agency best practices that
addressed the potential improvement areas identified through our interviews and reviews of
reports and the FDIC System Development Life Cycle Manual version 3.0. We used the Project
Management Institute’s A Guide to the Project Management Body of Knowledge (PMBOK®),
2000 Edition as our primary resource for evaluating FDIC’s SDLC project management
activities. PMBOK® describes generally accepted project management knowledge and practices
applicable to most projects by organizing the processes into nine knowledge areas (i.e.,
integration, scope, time, cost, quality, human resources, communication, risk, and procurement
management). The nine knowledge areas provide the practices needed to manage a successful
SDLC. In addition, we evaluated the SDLC for coverage of security controls cited in National
Institute of Standards and Technology (NIST) Special Publication 800-37, Guide for the Security
Certification and Accreditation of Federal Information Systems and post-implementation review
requirements contained in Office of Management and Budget (OMB) Circular A-130,
Transmittal 4.

To enhance our understanding of the enterprise architecture framework as it relates to the SDLC,
we reviewed three GAO reports:

   •   Information Technology - Enterprise Architecture Use Across the Federal Government
       Can Be Improved, GAO-02-6, dated February 2002.
   •   Information Technology – OMB Leadership Critical to Making Needed Enterprise
       Architecture and E-government Progress, GAO-02-389T, dated March 21, 2002.
   •   Air Traffic Control – FAA’s Modernization Efforts – Past, Present, and Future,
       GAO-04-227T, dated October 30, 2003.

Lastly, we contacted the FDIC’s Corporate University and the manager of DIRM’s new Program
Management Office to determine the actions being taken to promote and develop good project
management skills for SDLC project managers.




                                               18
                                                                                                         APPENDIX I

Management Controls

We limited our assessment of DIRM’s system of internal controls to gaining an understanding of
the division’s procedures for developing systems. Specifically, we evaluated (1) the adequacy of
processes to maintain and update procedures and controls; (2) FDIC’s objectives for its SDLC
processes; (3) project management controls for ensuring delivery of quality, risk-managed
systems within time and budget constraints; and (4) the FDIC control framework for evaluating
system development efforts. We did not test internal controls; however, the fact that we did not
perform those tests did not affect our ability to achieve the stated audit objectives or the audit
results.

Government Performance Results Act34

The FDIC 2004 Corporate Performance Objectives include the selection and implementation of a
new SDLC methodology. To meet this objective, DIRM has undertaken a review of the current
SDLC and federal agency and industry best practices related to systems development with a goal
of selecting and implementing a new SDLC methodology by November 1, 2004.

Reliance on Computer Generated Data

We relied on computer-generated data from DIRM’s Project Number Information Application to
compute the estimated budgeted system development costs for 2003 and 2004. Also, we used
computer-generated data from the FDIC Financial Data Warehouse to identify the total FDIC
budget for 2003. We did not perform specific tests to determine the reliability of computer-
processed data, because the results of our audit were not based on such data.

Summary of Prior Audit Coverage

The OIG issued Report No. 97-012, Audit of FDIC’s System Development Life Cycle
Methodology, dated January 30, 1997. This report provided nine recommendations for
improving the FDIC SDLC methodology. The report indicated that management provided
responses for all nine recommendations that met the requisites of a management decision. We
did not perform any detailed procedures to specifically follow up on the corrective actions
related to the nine recommendations.




34
   The Government Performance and Results Act of 1993 (Pub. L. No. 103-62, codified at Title 5 and 31, U.S.C.) was
enacted to improve the management, effectiveness, and accountability of federal programs. The Results Act requires
most federal agencies, including the FDIC, to develop a strategic plan that broadly defines the agency's mission and
vision, an annual performance plan that translates the vision and goals of the strategic plan into measurable objectives,
and an annual performance report that compares actual results against planned goals.



                                                            19
                                                                                    APPENDIX I

Compliance With Laws and Regulations

We did not identify any laws or regulations specifically requiring an SDLC methodology. We
also did not develop specific audit procedures to detect illegal acts because we did not consider
illegal acts to be significant to the audit objective. However, throughout our audit, we were
sensitive to the potential of illegal acts, including fraud, waste, abuse, and mismanagement.




                                                20
                                                                                            APPENDIX II


         WATERFALL AND ITERATIVE SYSTEM DEVELOPMENT MODELS

Waterfall Model

The traditional model for system development -- the linear sequential or “waterfall” model --
provides for clearly defined process phases. Each phase of development will proceed in order,
with limited, if any, overlap or iterative steps. Generally, each phase must be completed and
approved before the next phase can commence. Figure 2 provides an example of the waterfall
approach.
                       Figure 2: Waterfall Model of System Development


         Requirements
           Analysis

                        Preliminary
                          Design


                                      Detailed Design

                                                        Code & Unit
                                                          Testing

                                                                      Integration
                                                                        Testing

                                                                                    System Testing



                                                  T I M E



                   Source: University of Calgary Software Engineering Research Network.

The waterfall model has been found to work well for projects for which requirements are well
understood and fixed early on, such as projects involving changes to existing systems. The
disadvantage of a waterfall model is that it does not allow for much revision. Once an
application is in the testing stage, it is difficult to go back and change what was not known or
well thought out in the concept stage.

Iterative Development Models

Iterative development is an approach to building software in which the overall project life cycle
is composed of several sequential iterations. Each iteration is a self-contained mini-project
composed of activities such as requirements analysis, design, programming, and test. The final
iteration release is the planned product released to the client.




                                                        21
                                                                                           APPENDIX II


The advantage of using iterative development is that the end user is continually involved
throughout the development process, making it possible to make changes easily and identify and
solve problems at each stage of development. These models work best when not all project
requirements are known in detail ahead of time. However, problems may be encountered in
integrating the many iterative releases.

Figure 3 below represents one phase of a project developed using the spiral iterative model. As
noted in the figure, the spiral model provides a cyclic approach for incrementally increasing a
system's degree of definition and implementation while decreasing its degree of risk.

                       Figure 3: Spiral Software Development Life Cycle




       Source: Understanding the Spiral Model as a Tool for Evolutionary Acquisition by Barry Boehm and
       Wilfred J. Hansen, January 2001




                                                    22
                                                                                                APPENDIX II

The GAO has recognized the FAA’s35 spiral development approach. The GAO noted that
although the use of this approach can increase costs initially, money can be saved in the long run
by avoiding costly mistakes after system development. The GAO concluded that this approach
has helped the FAA improve its management of systems acquisitions and avoid costly late-stage
changes by providing for mid-course corrections.

Considerations for the Acquisition of COTS Software

The SEI has noted that the use of COTS products as elements of larger systems is becoming
increasingly commonplace. Shrinking budgets, accelerating rates of COTS enhancement, and
expanding system requirements are all driving this process. Also, GAO best practice guidance36
notes that the advantages of using COTS software include (1) a less costly development in
comparison to developing in-house applications, (2) software upgrades that are affordable and
regularly available, and (3) a design that includes best practices.

However, the use of COTS software also includes risks that require an iterative approach to
system development. Through its COTS-Based Systems (CBS) Initiative, the SEI changes the
focus of software engineering from one of traditional system specification and construction to
one requiring consideration of and balance between:

     •   system context (stakeholder and business process requirements and project management
         aspects such as cost, schedule, and risk considerations;
     •   marketplace (available and emerging COTS technology and products and relevant
         standards); and
     •   architecture and design (the essential elements of the system and the relationships
         between them).

Figure 4 provides a summary of the CBS approach.




35
   GAO testimony, Air Traffic Control, FAA’s Modernization Efforts – Past, Present and Future, GAO 04-227T, dated
October 30, 2003.
36
   GAO Executive Guide, Creating Value Through World-class Financial Management, GAO/AIMD-00-134, dated
April 2000.


                                                        23
                                                                                  APPENDIX II

                          Figure 4: COTS-Based Systems Approach




                            Source: The SEI COTS-Based Systems Initiative.

The SEI noted that numerous projects have unsuccessfully tried to integrate COTS software
using the more traditional approach of defining the requirements, formulating an architecture to
meet those requirements, and then trying to fit components into that architecture. The SEI,
therefore, recommends the use of a risk-based spiral, or iterative, system development approach
to building, fielding, and supporting COTS-based systems.




                                                 24
                                                             APPENDIX III


        FEDERAL AGENCIES AND INDUSTRY ENTITIES THAT PROVIDED
        INFORMATION ON SDLC METHODOLOGY AND BEST PRACTICES


Federal Agencies
Department of Justice
Department of Labor
Department of the Treasury’s Financial Management Services
Federal Reserve Board
Federal Aviation Administration
General Accounting Office

Industry
Carnegie Mellon’s Software Engineering Institute
Deloitte & Touche/ Deloitte Consulting
Forrester Group
International Business Machines
PricewaterhouseCoopers
Queen’s University of Computing
Rational Software Management
Software Productivity Research, LLC
University of Calgary




                                             25
                                                                                  APPENDIX IV


                         PROJECT MANAGEMENT GUIDANCE

The Project Management Institute (PMI) has conducted extensive research and analysis in the
field of project management and published a standards guide in 2000 entitled A Guide to the
Project Management Body of Knowledge (PMBOK® Guide). The PMBOK® Guide documents
proven practices, tools, and techniques that have become generally accepted in the field of
project management, including information systems development and implementation. The
PMBOK® Guide is an approved standard of the American National Standards Institute and the
Institute of Electrical and Electronics Engineers. The PMBOK® Guide identifies nine distinct
knowledge areas associated with successful project management. The nine areas are integration,
scope, time, cost, quality, human resources, communication, risk, and procurement management.

   •   Integration Management: The processes that ensure various elements of a project are
       properly coordinated. Integration management consists of project plan development and
       execution and integrated change control.
   •   Scope Management: The processes that ensure a project includes all of the work
       required, and only the work required, to complete the project successfully. Scope
       management consists of initiation and scope planning, definition, verification, and change
       control.
   •   Time Management: The processes that ensure timely completion of a project. Time
       management consists of activity definition, sequencing, and duration estimating as well
       as schedule development and schedule control.
   •   Cost Management: The processes that ensure a project is completed within the approved
       budget. Cost management consists of resource planning and cost estimating, cost
       budgeting, and cost control.
   •   Quality Management: The processes that ensure a project will satisfy the needs for
       which it was undertaken. Quality management consists of quality planning, assurance,
       and control.
   •   Human Resource Management: The processes that make the most effective use of the
       people involved with a project. Human resource management consists of organizational
       planning, staff acquisition, and team development.
   •   Communications Management: The processes that ensure timely and appropriate
       generation, collection, dissemination, storage, and ultimate disposition of project
       information. Communications management consists of communications planning,
       information distribution, performance reporting, and administrative closure.
   •   Risk Management: The processes concerned with identifying, analyzing, and
       responding to project risk. Risk management consists of risk management planning, risk
       identification, qualitative and quantitative risk analysis, risk response planning, and risk
       monitoring and control.
   •   Procurement Management: The processes related to acquiring goods and services from
       outside the organization. Procurement management consists of procurement and
       solicitation planning, solicitation, source selection, contract administration, and contract
       closeout.



                                               26
                                                                                                       APPENDIX V


     USEFUL BUSINESS MEASURES OF SYSTEM DEVELOPMENT PERFORMANCE

In the report, Measuring Performance and Demonstrating Results of Information Technology
Investments, AIMD-98-89, dated March 1998, GAO identified these useful information
technology internal business measures of system development performance:

Applications development and maintenance:
   • Number of function points37 delivered per labor hour
   • Number of defects per 100 function points at user acceptance
   • Number of critical defects per 100 function points in production
   • Percentage of decrease in application software failures and problems
   • Mean time to resolve critical defects
   • Cycle time for development

Project performance:
    • Percentage of projects on time and on budget
    • Percentage of projects meeting functionality requirements
    • Percentage of projects using standard methodology for systems analysis and design

Infrastructure availability:
    • Percentage of computer availability
    • Percentage of communications availability
    • Percentage of applications availability
    • On-line system availability

Enterprise architecture standards compliance:
   • Number of variations from standards detected by review and audit per year
   • Percentage of increase in systems using architecture
   • Percentage of staff trained in relevant standards




37
   Function point analysis was first published by International Business Machines in 1979. It is a metric for the purpose
of an economic and productivity analysis that uses weighted counts of five parameters: inputs, outputs, inquiries, logical
files, and interfaces.


                                                            27
                       APPENDIX VI



CORPORATION COMMENTS
                       APPENDIX VI

CORPORATION COMMENTS




        29
                       APPENDIX VI

CORPORATION COMMENTS




        30
                                                                                                                                                 APPENDIX VII

                                              MANAGEMENT RESPONSES TO RECOMMENDATIONS

     This table presents the management responses that have been made on recommendations in our report and the status of recommendations
     as of the date of report issuance. The information in this table is based on management’s written response to our report.

                                                                                                                                                                  Open
      Rec.                                                                                Expected            Monetary      Resolved:a      Dispositioned:b        or
     Number               Corrective Action: Taken or Planned/Status                   Completion Date        Benefits      Yes or No         Yes or No          Closedc
       1          DIRM will establish an Enterprise Program Management
                  Office (PMO), which will standardize project management               December 31, 2005           N/A            Yes                No             Open
                  processes across all information technology projects. This
                  will include improved procedures for project initiation, project
                  planning, project execution and control, and project closeout.
          2       The DIRM PMO will periodically review the results from
31




                  performance assessment activities (such as quality assurance          December 31, 2005           N/A            Yes                No             Open
                  testing and post-implementation reviews) to ensure that best
                  practices and lessons learned are incorporated into future
                  project/development processes.
          3       The Corporation’s EA program will assist in supporting
                  decision-making bodies in determining which new system                December 31, 2005           N/A            Yes                No             Open
                  projects will be undertaken and their alignment with new or
                  existing architectures. The PMO will be one of many
                  additional control points to ensure that the Corporation’s EA
                  is understood and applied to projects.
          4       FDIC guidelines for applying NIST C&A new standards are
                  in place, and briefings are underway to discuss the new               December 31, 2005           N/A            Yes                No             Open
                  processes and evaluate impact on project plans. Internal
                  procedures will evolve to address future changes in the NIST
                  guidelines.
     a
       Resolved – (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation. (2) Management does not
     concur with the recommendation but planned alternative action is acceptable to the OIG. (3) Management agrees to the OIG monetary benefits or a different amount,
     or no ($0) amount. Monetary benefits are considered resolved as long as management provides an amount.
     b
       Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
     implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
     recommendation.
     c
       Once the OIG dispositions the recommendation, it can then be closed.
